Report No. DODIG-2012-100                      June 7, 2012




     Independent Auditor's Report on the Examination
       of the Existence, Completeness, and Rights of
         the Department of the Air Force's Aircraft,
        Intercontinental Ballistic Missiles, Satellites,
          Cruise Missiles, and Aerial Targets/Drones
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
APSR                          Accountable Property System of Record
ICBM                          Intercontinental Ballistic Missile
IMDB                          Integrated Missile Data Base
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA. VIRGINIA 22350-1500




                                                                              June 7, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor's Report on the Examination of the Existence,
         Completeness, and Rights of the Department of the Air Force's Aircraft,
         Intercontinental Ballistic Missiles, Satellites, Cruise Missiles and Aerial
         Targets/Drones (Report No. DODIG-2012-100)

We are providing this report for information and use. No written response to this report
was required. Therefore, we are publishing this 'report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 664-5945).



                                              oe,~-r:\I~
                                              Lorin T. Venable, CPA
                                              Acting Assistant Inspector General
                                              DoD Payments and Accounting Operations
                                             INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                             4800 MARK CENTER DRIVE
                                          ALEXANDRIA, VIRGINIA 22350-1500




                                                                                                        June 7, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Examination of the Existence, Completeness, and
         Rights of the Department of the Air Force’s Aircraft, Intercontinental Ballistic Missiles,
         Satellites, Cruise Missiles and Aerial Targets/Drones (Report No. DODIG-2012-100)

We examined management’s assertion of audit readiness 1 for the existence, completeness, and rights
of the Department of the Air Force’s aircraft, intercontinental ballistic missiles (ICBMs), satellites,
cruise missiles, and aerial targets/drones. As a result of our review of the Air Force’s assertion, we
performed an examination of the existence, completeness, and rights of the Air Force’s aircraft,
ICBMs, satellites, cruise missiles, and aerial targets/drones, as of December 31, 2011. 2 The Air
Force’s assertion package did not demonstrate audit readiness for any other asset categories;
therefore, we excluded all other asset classes from our examination. We attached a table identifying
the significance of the number of assets for each of the categories the Air Force included in its
assertion. The Air Force’s assertion specifically excluded a reconciliation of the summary schedule
of assets to the general ledger. Therefore, our examination solely focused on the assets in the
Accountable Property System of Record (APSR) and did not determine whether the APSR
reconciled to the general ledger.

Air Force management is responsible for its assertion of audit readiness. Our responsibility is to
express an opinion on the assertion based on our examination.

We conducted our examination in accordance with attestation standards established by the American
Institute of Certified Public Accountants and generally accepted government auditing standards as
stated in the Government Accountability Office, “Government Accounting Standards.” Those
standards require examining, on a test basis, evidence supporting the Air Force’s assertion of audit
readiness of the existence, completeness, and rights of its mission-critical assets and performing
other procedures we consider necessary in the circumstances. We believe that our examination
provides a reasonable basis for our opinion on management’s assertion.




1
  Audit readiness per the December 2011 DoD Financial Improvement and Audit Readiness guidance. Specifically,
Appendix C, Wave 3 – Mission Critical Asset Existence and Completeness Audit Key Supporting Documents (except
for number 14 - reconciliation of the summary schedule of assets to the general ledger) and Appendix D, Section D.4.
2
  The Air Force had to move the assertion date for ICBMs to January 31, 2012, because limitations associated with the
APSR, which is the Reliability and Maintainability Information System.
In our opinion, the Air Force’s assertion of audit readiness for the existence, completeness, and
rights of its aircraft, satellites, cruise missiles, and aerial targets/drones, as of December 31, 2011,
and ICBMs, as of January 31, 2012, is fairly stated in all material respects.

Internal Controls
Internal controls are important for safeguarding assets. Management designs internal controls to
provide reasonable assurance that unauthorized acquisition, use, or disposition of assets will be
prevented or detected and corrected in a timely manner. During our examination, we identified
internal control issues. These internal control issues did not preclude us from reaching an opinion
regarding the Air Force’s assertion. However, management should consider additional actions to
improve the internal controls to ensure the sustainability of its processes in accounting for the
existence, completeness, and rights of its aircraft, ICBMs, satellites, cruise missiles, and aerial
targets/drones.

We identified the following internal control issues.

    •   The Air Force classified certain aircraft in the APSR as military equipment that did not meet
        the DoD definition of military equipment. 3

             •   The Air Force classified several types of training aircraft as military equipment.
                 These included types of aircraft the Air Force specifically designated for training,
                 such as the T-6A, and aircraft the Air Force permanently grounded for training
                 purposes, such as a GF-16B. The classification for other aircraft was questionable
                 because they were otherwise military aircraft the Air Force used for training. These
                 include aircraft with a modified training mission design series, such as a TE-008A, or
                 aircraft the Air Force assigned for the purpose of training, such as an F-22A, with a
                 purpose code of “TF.” The Air Force should consider determining which of these
                 different types of aircraft would be most accurately classified as general equipment,
                 instead of military equipment.

             •   The Air Force classified several aircraft types as military equipment although their
                 mission did not appear military in nature. These aircraft were modified versions of
                 commercial passenger airplanes, and we found that the Air Force generally used them
                 to transport high ranking personnel. Examples include the C-32 (Boeing 757-200
                 Commercial Airliner) and the C-21 (Lear Jet 35A Business Jet). The Air Force
                 should consider reviewing these different types of aircraft to determine whether or not
                 they should be classified as general equipment, instead of military equipment.

             •   The Air Force classified some aircraft as military equipment that the Aerospace
                 Maintenance and Regeneration Group held for parts recovery and then disposal under
                 purpose code “XD.” The Air Force did not preserve these aircraft in a condition to
                 permit future operational use. The Air Force should consider removing aircraft with
                 purpose code “XD” from the military equipment population.

3
  The DoD Financial Management Regulation, Volume 4, Chapter 6, “Property, Plant and Equipment,” defines military
equipment as military equipment items that the Armed Forces intend to use to carry out battlefield missions. Examples
include combat aircraft, pods, combat ships, support ships, satellites, and combat vehicles.


                                                          2
   •   Our aircraft existence testing identified a small number of aircraft that the Air Force did not
       remove from the APSR in a timely manner. For example, the Air Force sold two GC-130E
       aircraft to the Army in September 2010 but included them in the December 31, 2011, APSR.
       The Air Force should ensure that the responsible Aerospace Vehicle Distribution Officers
       take timely and appropriate actions to consistently remove aircraft from the APSR when the
       aircraft are sold, destroyed, or no longer qualify as military equipment.

   •   The Air Force needs to establish controls to properly identify complete ICBMs within its
       APSR. The Air Force initially asserted to 450 complete ICBMs as of December 31, 2011,
       but the supporting APSR showed 551. The Air Force explained that because of limitations
       with the APSR, we needed to reconcile the APSR to the Integrated Missile Data Base
       (IMDB) to identify actual number of complete ICBMs. However, the Air Force was unable
       to provide the IMDB report for December 31, 2011. Therefore, the Air Force provided the
       APSR and corresponding IMDB report as of January 31, 2012. The Air Force reported 551
       ICBMs in the APSR as of January 31, 2012. However, a reconciliation with the IMDB
       identified that only 449 complete ICBMs actually existed. The Air Force acknowledged this
       deficiency in a December 2011 addendum to its assertion package and stated that corrective
       action involved proposed APSR changes. The Air Force was still working on completing
       and testing APSR changes at the time of this report.

   •   The Air Force’s controls over the additions and retirements of satellites in the APSR needed
       improvement. Specifically, the Air Force improperly reported decommissioned satellites as
       military equipment in the APSR as of December 31, 2011. In addition, the Air Force did not
       include all operational satellites in the APSR. As a result of this examination, the Air Force
       initiated actions to correct the satellite information in the APSR and also to improve future
       satellite reporting. Satellites, as a whole, only represented 1 percent of the total assets for all
       asserted asset categories in the APSR.

   •   Our review of the Air Force assertion package for its General Fund operating materials and
       supplies identified a potential classification issue with aerial targets. Specifically, we
       questioned the Air Force’s classification of aerial targets, QF-4, as operating material and
       supplies. We concluded that the Air Force and DoD should reexamine this classification
       because these assets typically have a useful life in excess of 2 years, costs in excess of the
       capitalization threshold, and are subject to inspection and repair after each mission. The
       aerial targets appear to exhibit the characteristics of general equipment. The Air Force
       classified the aerial targets as operating materials and supplies in their December 31, 2011,
       assertion and should consider reexamining this classification.

Improving these internal control processes will help the Air Force repeat and sustain the processes
during future financial statement examinations.




                                                    3
This report is intended solely for the information and use of the Under Secretary of Defense
(Comptroller)/ChiefFinancial Officer, DoD and the Assistant Secretary of the Air Force (Financial
Management and Comptroller) and is not intended to be and should not be used by anyone else.
However, this report is a matter of public record, and its distribution is not limited.



                                           du:,__:;;" Ve"~
                                            LorinT. Venable, CPA
                                            Acting Assistant Inspector General
                                            DoD Payments and Accounting Operations


Attachment:
As stated




                                                4
Attachment. Significance of Asserted Asset
Categories
The table below shows the significance of the total number of assets for all asset categories the
Air Force included in its assertion as reported in the APSR. Because the Air Force’s assertion
specifically excluded a reconciliation of the summary schedule of assets to the general ledger, we
only compared the significance of the asserted assets to the total number of all asserted assets
reported in the APSR.


                     Significance of Asset Categories in the Air Force Assertion
                                                             Number
                                                            of Assets       Percent of
                                                              in the    Number of Assets
                             Category                         APSR        Grand Total
          Aircraft                                            6,044            78.2
          ICBMs*                                                449              5.8
          Satellites                                              78             1.0
           Military Equipment Subtotal                        6,571            85.0
          Cruise Missiles                                       982            12.7
          Aerial Targets/Drones                                 175              2.3
           Operating Materials & Supplies Subtotal            1,157            15.0

             Grand Total                                               7,728                100.0
       * The ICBM numbers are those the Air Force reported in the APSR as of January 31, 2012. The
       numbers for all other categories are those the Air Force reported in the APSR as of December 31, 2011.




                                                         5
